No.

IN THE UNITED STATES SUPREME COURT

BENJAMIN MACIAS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 of the Rules of the Supreme Court of the United States,
Petitioner Benjamin Macias respectfully requests leave to file a petition for writ of
certiorari and to proceed in forma pauperis.
The undersigned attorney certifies that he was appointed to represent
petitioner in this case in the Ninth Circuit Court of Appeals under the Criminal
Justice Act of 1964, 18 U. S C. ยง 3006A.

Respectfully submitted,
/s/ Walter K. Pyle
Walter K. Pyle
2039 Shattuck Avenue, Suite 202
Berkeley, CA 94704-1116
(510) 849-4424
walt@wfkplaw.com

Attorney for Petitioner

